1 .:'x

Supreme Court, U.S.
FILED

DEC 0 1 2020
OFFICE OF THE CLERK

No. 20 ~ WO 1
IN THE

Supreme Court of tije ®mteb States
TANIESHIA HARDEN
Petitioner
v.

COMCAST CORPORATION
Respondent
On Petition for Writ of Certiorari to
The United States Court of Appeals
For The Seventh Circuit
PETITION FOR WRIT OF CERTIORARI
TANIESHIA HARDEN
PETITIONER
19726 SEQUOIA AVENUE
LYNWOOD, IL 60411

received
FEB \ 0 2021

1

I.

QUESTION PRESENTED FOR REVIEW
Is the grant of summary judgment proper when the
movant does not meet its burden?

n

PARTIES TO THE PROCEEDING
The caption contains the names of all parties to this
proceeding in the Seventh Circuit Court of Appeal whose
judgment is sought to be reviewed.

m

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED.............................
PETITION FOR A WRIT OF CERTIORARI....
OPINIONS BELOW..........................................

11

JURISDICTION.................................................

9

STATUTORY PROVISIONS INVOLVED.......

10

STATEMENT OF THE CASE............ .............

10

REASONS FOR GRANTING THE PETITION

12

7
8

I.

THE DECISION OF THE COURT OF APPEAL
FOR THE SEVENTH CIRCUIT HAS SO FAR
DEPARTED FROM ACCEPTED AND USUAL
COURSE OF JUDICIAL PROCEEDINGS, OR
SANCTIONED SUCH A DEPARTURE BY A
LOWER COURT AS TO CALL FOR AN
EXERCISE OF THIS COURT’S SUPERVISORY
POWER.............................................................. 12

II.

THERE IS AN UNSETTLED AREA OF LAW
REGARDING THE APPROPRIATE PLEADING
STANDARD FOR VIOLATION OF 42 U.S.C. §
1981 IN THE COMMERCIAL
13
ESTABLISHMENT CONTEXT

Appendix:
Seventh Circuit Order (September 4, 2020)............

15

District Court Memorandum Opinion and Order
granting Comcast’s Motion for Summary Judgment
(December 18, 2018)....................................................

20

IV

TABLE OF AUTHORITIES
Rule 56 of the Federal Rules of Civil Procedure

v

9

PETITION FOR A WRIT OF CERTIORARI
Taniesheia Harden, Pro Se, respectfully petitions for
a writ of certiorari to review the judgment of the United
States Court of Appeal for the Seventh Circuit in
Taniesheia Harden v. Comcast Corporation, No. 19-2572 (
Hamilton, Brennan, St. Eve).

6

OPINIONS BELOW
The order of the court of appeals affirming the
district court’s memorandum opinion and order is not
reported, however, it is reproduced in Appendix at page 17.

7

STATEMENT OF JURISDICTION
On September 4, 2020, the court of appeals affirmed
the district court’s order. Petitioner filed a motion in this
Court for extension of time, which is currently pending.
This Court’s jurisdiction is invoked under U.S.C. § 1254(1).

8

CONSTITUTIONAL AND STATUTORY PROVISIONS
INVOLVED
Rule 56. Summary Judgment
(a) Motion for Summary Judgment or Partial Summary
Judgment. A party may move for summary judgment,
identifying each claim or defense — or the part of each
claim or defense — on which Summary judgment is sought.
The court shall grant summary judgment if the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter of
law. The court should state on the record the reasons for
granting or denying the motion.

9

STATEMENT OF THE CASE
Petitioner Taniesheia Harden (“Ms. Harden”') began
working for Comcast in 2000. In the summer of 2014, she
took a medical leave of absence from her job. While she was
away, an interim supervisor named Regina Coleman
temporarily took over her responsibilities. Just after she
returned in October, Comcast conducted an audit
purportedly to determine whether supervisors were
handling complaints in a timely manner. Under Comcast's
policies, if the agent who fields a complaint cannot resolve
it, he or she creates an “escalation resolution ticket” that
the supervisor must handle within a fixed amount of time.
Relying on the audit data, Comcast gave a final written
warning to any supervisor who complied with the ticketing
procedures less than 65% of the time. In January 2015,
Harden received a final written warning because the audit
showed only 56% compliance. On January 29, 2015, Harden
submitted a written request to Comcast for her personnel
file pursuant to the IPPRA. The request was necessary for
her to understand why she was given a final written
warning. Comcast failed to respond to that request within
the required statutory time period. Appellant was fired
from her job as a supervisor at a Comcast customer service
call center in June 2015. She sued Comcast, alleging that
her termination was unlawfully motivated by her race, age,

10

and / or disability. She also alleged unlawful retaliation and
a violation of the Illinois Personnel Records Review Act. In
count five of Harden's amended complaint, she alleged that
Comcast failed to produce documents from her personnel
file in violation of the Illinois Personnel Record Review Act,
820 ILCS 40/2. Comcast moved for summary judgment on
this claim. The district granted the motion, reasoning that
Appellant had “failed to respond to Comcast's arguments
that the IPPRA claim is not cognizable under 820 ILCS
40/10(f) and that she has not been harmed by the alleged
non-disclosure.” The district court concluded that “[tjhese
omissions from the reply brief forfeit any counter
arguments, and Comcast is therefore entitled to summary
judgment on count five.” The district court’s reasoning and
conclusion was incorrect because it applied the legal
standard for summary judgment incorrectly. Moreover,
Comcast failed to demonstrate that it was entitled to
judgment as a matter of law for several reasons: (1) It failed
to completely and timely respond to Plaintiff s requests
under the IPPRA and waived any rights it could have
asserted; (2) the IPPRA does not require Plaintiff to Show
actual harm; (3) there exists genuine issues of material fact
as to whether Comcast violated the IPPRA, and whether its
violation was willful and knowing. The district court’s
decision was incorrect and unfair. On September 4, 2020,

11

the Court of Appeals for the Seventh Circuit entered an
order affirming the district court’s decision. (App A). This
petition presents the question of whether a grant of motion
for summary judgment is proper if the movant does not
meet its burden.

REASONS FOR GRANTING THE PETITION
I.

THE DECISION OF THE COURT OF APPEAL
FOR THE SEVENTH CIRCUIT HAS SO FAR
DEPARTED FROM ACCEPTED AND USUAL
COURSE OF JUDICIAL PROCEEDINGS, OR
SANCTIONED SUCH A DEPARTURE BY A
LOWER COURT AS TO CALL FOR AN
EXERCISE OF THIS COURT’S SUPERVISORY
POWER
a. The Court of Appeal For the Seventh
Circuit Made Improper Factual
Determinations Where Petitioner Made a
Proper Demand For a Jury Trial, in
violation of Petitioner’s Seventh
Amendment Right to A Jury Trial.

Rule 56 of the Federal Rules of Civil Procedure
provides that court “shall grant summary judgment if the
movant shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment as a
matter of law.” The Seventh Circuit’s decision conflicts with
this Rule because it affirmed a decision in which the
district court granted Comcast’s motion for summary
judgment without Comcast showing that it was entitled to
it.

12

II.

THERE IS AN UNSETTLED AREA OF LAW
REGARDING THE APPROPRIATE PLEADING
STANDARD FOR VIOLATION OF 42 U.S.C. §
1981 IN THE COMMERCIAL ESTABLISHMENT
CONTEXT.
The Seventh Circuit’s holding in this case raises
issues of great practical importance and constitutional
meriting this Court’s intervention. Specifically, this Court
needs to accept this case and establish a standard rule that
courts should follow when evaluating motions for summary
judgment.

13

CONCLUSION
For the foregoing reasons, Petitioner respectfully
requests that the petition for a writ of certiorari be granted.

Respectfully submitted on December 3, 2020

/s/ Taniesheia Harden
Taniesheia Harden
19726 Sequoia Ave
Lynwood IL 60411

14

